<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                 DEPARTMENTS OF COMMERCE, JUSTICE, AND

                   STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2004

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS
                              FIRST SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman

 HAROLD ROGERS, Kentucky              JOSE E. SERRANO, New York
 JIM KOLBE, Arizona                   ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina    ROBERT E. ``BUD'' CRAMER, Jr., 
 RALPH REGULA, Ohio                   Alabama
 DAVID VITTER, Louisiana              PATRICK J. KENNEDY, Rhode Island
 JOHN E. SWEENEY, New York            MARTIN OLAV SABO, Minnesota       
 MARK STEVEN KIRK, Illinois         
                                                                        
                                                                        
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Mike Ringler, Christine Kojac, Leslie Albright, and John F. Martens
                           Subcommittee Staff
                                ________
                                 PART 2

                  Justification of the Budget Estimates

                          DEPARTMENT OF JUSTICE

                                   

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 89-471                     WASHINGTON : 2003


                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                        DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                   JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky                   NORMAN D. DICKS, Washington
 FRANK R. WOLF, Virginia                   MARTIN OLAV SABO, Minnesota
 JIM KOLBE, Arizona                        STENY H. HOYER, Maryland
 JAMES T. WALSH, New York                  ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina         MARCY KAPTUR, Ohio
 DAVID L. HOBSON, Ohio                     PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma           NITA M. LOWEY, New York
 HENRY BONILLA, Texas                      JOSE E. SERRANO, New York
 JOE KNOLLENBERG, Michigan                 ROSA L. DeLAURO, Connecticut
 JACK KINGSTON, Georgia                    JAMES P. MORAN, Virginia
 RODNEY P. FRELINGHUYSEN, New Jersey       JOHN W. OLVER, Massachusetts
 ROGER F. WICKER, Mississippi              ED PASTOR, Arizona
 GEORGE R. NETHERCUTT, Jr.,                DAVID E. PRICE, North Carolina
Washington                                 CHET EDWARDS, Texas
 RANDY ``DUKE'' CUNNINGHAM,                ROBERT E. ``BUD'' CRAMER, Jr., 
California                                 Alabama
 TODD TIAHRT, Kansas                       PATRICK J. KENNEDY, Rhode Island
 ZACH WAMP, Tennessee                      JAMES E. CLYBURN, South Carolina
 TOM LATHAM, Iowa                          MAURICE D. HINCHEY, New York
 ANNE M. NORTHUP, Kentucky                 LUCILLE ROYBAL-ALLARD, California
 ROBERT B. ADERHOLT, Alabama               SAM FARR, California
 JO ANN EMERSON, Missouri                  JESSE L. JACKSON, Jr., Illinois
 KAY GRANGER, Texas                        CAROLYN C. KILPATRICK, Michigan
 JOHN E. PETERSON, Pennsylvania            ALLEN BOYD, Florida
 VIRGIL H. GOODE, Jr., Virginia            CHAKA FATTAH, Pennsylvania
 JOHN T. DOOLITTLE, California             STEVEN R. ROTHMAN, New Jersey
 RAY LaHOOD, Illinois                      SANFORD D. BISHOP, Jr., Georgia
 JOHN E. SWEENEY, New York                 MARION BERRY, Arkansas            
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
 DAVE WELDON, Florida
 MICHAEL K. SIMPSON, Idaho
 JOHN ABNEY CULBERSON, Texas
 MARK STEVEN KIRK, Illinois
 ANDER CRENSHAW, Florida 
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            
                                    
                                    

                 James W. Dyer, Clerk and Staff Director

                                  (ii)


                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
